HHS/OIG, Audit -"Review of the Classification of Missouri Provider Tax Refunds on Hospitals' Medicare Cost Reports,"(A-07-02-04006)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Classification of Missouri Provider Tax Refunds on Hospitals' Medicare Cost Reports," (A-07-02-04006)
May 6, 2004
Complete
Text of Report is available in PDF format (371 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that fifteen Missouri hospitals did not record the refund of provider tax expenses properly
on their Medicare cost reports, and four hospitals included donations to the Missouri Hospital Association on the cost
reports that were unallowable expenses under Medicare regulations.  These problems occurred because the hospitals
did not follow Medicare regulations on claiming provider tax refunds.  Also, the fiscal intermediary, when settling
cost reports, inconsistently applied Medicare rules and regulations relating to provider tax refunds and unallowable expenses.  As
a result, the hospitals received $8.4 million in excess Medicare reimbursement.  We recommended that CMS instruct
fiscal intermediaries to recover the excess reimbursements from the hospitals.  We also recommended procedural improvements
that should preclude this problem in the future.  The CMS concurred with our recommendations.